                                  EVALUATION




 U.S. FISH AND WILDLIFE SERVICE
 GRANTS AND COOPERATIVE
 AGREEMENTS IN HAWAII AND
 THE PACIFIC ISLANDS




Report No.: HI-EV-FWS-0001-2009       June 2011
              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OF THE INTERIOR



Memorandum
                                                                                JUN 1 5 2011
To:            Rowan Gould


From:          Mary L. Kendall
               Acting Inspector General

Subject:       Evaluation - U.S. Fish and Wildlife Service Grants and Cooperative Agreements
               in Hawaii and the Pacific Islands
               Report No. HI-EV-FWS-0001-2009

        This report presents the results of our evaluation of grants and cooperative agreements
administered by the U.S. Fish and Wildlife Service (FWS) through the Pacific Islands Fish and
Wildlife Office (PIFWO). We conducted this evaluation to assess the extent to which FWS
Pacific Regional Office and PIFWO control activities can be relied upon to prevent and detect
fraud and wasteful spending.

         We found that in administering grants and cooperative agreements, PIFWO did not meet
its fiscal responsibilities while the Pacific Regional Office failed to provide effective oversight.
Ineffective implementation of controls, together with numerous ethical concerns and fraud
indicators, placed FWS at significant risk for favoritism and fraud. In this environment,
undisclosed relationships between FWS grant administrators and recipients raised the appearance
of conflicts of interest. In light of these concerns, we set out to determine what, if any, improper
acts may have taken place and questioned whether nearly $1.1 million of grant funds were
awarded inappropriately as a result of breaches of ethical standards and a disregard for
administrative requirements of financial assistance programs.

        We made nine recommendations to help improve the grants and cooperative agreement
processes, controls, and oversight practices at PIFWO and the Pacific Regional Office. Based
on your February 25,2011 response to the draft report, we consider Recommendations 1 and 3-
9 to be resolved and implemented and Recommendation 2 resolved, but additional information is
needed. These recommendations will be referred to the Office of Policy, Management and
Budget for tracking (Appendix 5).

        The legislation, as amended, creating the Office of Inspector General requires that we
report to Congress semiannually on all audit reports issued, actions taken to implement our
recommendations, and recommendations that have not been implemented.




                               Office of Inspector General I Washington, DC
        We appreciate the cooperation shown by PIFWO and the Pacific Regional Office during
our evaluation. A response to this report is not required. If you have any questions regarding this
report, please call me at 202-208-5745.




                                                 2
Table of Contents
Results in Brief ....................................................................................................... 1
Introduction ............................................................................................................. 2
   Objective ............................................................................................................. 2
   Background ......................................................................................................... 2
Findings................................................................................................................... 4
   Controls Implemented Ineffectively.................................................................... 4
      Financial Assistance Review Checklist ........................................................... 4
      Grants Management Review ........................................................................... 6
      Landowner Agreements ................................................................................... 7
      Documentation................................................................................................. 7
      Proper Training ................................................................................................ 9
   Ethical Concerns and Fraud Indicators ............................................................... 9
      Annual Ethics Disclosure .............................................................................. 10
      Appearance of Conflicts of Interest ............................................................... 10
      Lack of Competition ...................................................................................... 11
      Appearance of Favoritism ............................................................................. 11
      Frequent Modifications.................................................................................. 12
      Arrangements to Circumvent Procurement Controls .................................... 12
      Multiple Avenues for Payment ...................................................................... 13
Conclusion and Recommendations ....................................................................... 17
   Conclusion......................................................................................................... 17
   Recommendations ............................................................................................. 17
Appendix 1: Scope and Methodology................................................................... 22
   Scope ................................................................................................................. 22
   Methodology ..................................................................................................... 22
      Limitations ..................................................................................................... 22
Appendix 2: Selected Prior Coverage ................................................................... 24
   January 2007 ..................................................................................................... 24
   August 2005 ...................................................................................................... 26
Appendix 3: Sites Visited or Contacted ................................................................ 29
Appendix 4: Schedule of Monetary Impact .......................................................... 31
Appendix 5: FWS Response ................................................................................. 33
Appendix 6: Status of Recommendations ............................................................. 39
Results in Brief
We evaluated grants and cooperative agreements funded by the U.S. Fish and
Wildlife Service (FWS) Pacific Islands Fish and Wildlife Office (PIFWO) in fiscal
years 2007 to 2009 to assess the extent to which FWS Pacific Regional Office and
PIFWO control activities can be relied upon to prevent and detect fraud and
wasteful spending. A combination of limited Federal land ownership and the high
number of threatened and endangered species drives PIFWO to develop
partnerships and award financial assistance to private landowners and conservation
groups for projects in Hawaii and throughout the Pacific islands. Our evaluation
found, however, that in administering financial assistance in the form of grants and
cooperative agreements, PIFWO does not meet its fiscal responsibilities, and the
Pacific Regional Office fails to provide effective oversight. Despite existing
guidelines and policies, PIFWO is not adequately ensuring impartiality,
transparency, and accountability in awarding and administering these funds.

Key controls developed by the Department of the Interior (Department), some in
response to Office of Inspector General (OIG) recommendations, have been
implemented ineffectively in the FWS Pacific Region. Many of the files we
reviewed did not include the financial assistance review checklist, a preventive
control tool designed to ensure that financial assistance awards are made in
accordance with Office of Management and Budget policies and Departmental
requirements. Further, the grants management review, which is to be performed to
ensure proper oversight of assistance of programs, is not adequately documented
and contains significant design flaws. More than three-quarters of the files we
reviewed did not contain the standard assurance form signed by grant recipients to
certify their intent to comply with critical Federal stipulations, including
maintenance of a proper accounting system.

We also identified ethical concerns relating to conflicts of interest and favoritism
toward preferred recipients that put FWS’ credibility at risk. Currently, FWS has
no requirement for PIFWO grant administrators to disclose relationships,
memberships, or positions held with outside organizations — even those that are
recipients of FWS grants or cooperative agreements. In addition, we found that
non-governmental organizations acting as fiscal agents could be used to bypass
Federal and State procurement systems. In one such instance, these issues
converged and lead us to question nearly $1.1 million awarded to a grant recipient.

Although partnership with non-Federal landowners is essential to conserving
threatened and endangered species and their habitats in Hawaii and other Pacific
islands, corrective action is needed to address the ineffective implementation of
controls and the numerous ethical concerns and indicators of potential fraud that
we have found. If these issues are not addressed properly, millions of taxpayer
dollars will continue to be at significant risk for favoritism and fraud.



                                                                                    1
Introduction
Objective
Our objective for this evaluation was to assess the extent to which U.S. Fish and
Wildlife Service’s (FWS) Pacific Regional Office and Pacific Islands Fish and
Wildlife Field Office (PIFWO) control activities can be relied upon to prevent and
detect fraud and wasteful spending in the award and management of grants and
cooperative agreements in Hawaii and the Pacific islands.

Background
The FWS mission is to “work with others to conserve, protect, and enhance fish,
wildlife, plants, and their habitats for the continuing benefit of the American
people.” The Pacific Region encompasses the states of Hawaii, Idaho, Oregon, and
Washington as well as U.S. territories and outlying islands across the Pacific. The
Regional headquarters is located in Portland, Oregon, and each state within the
Region hosts a field office. Located in Honolulu, Hawaii, PIFWO is an Ecological
Services field office with responsibility for FWS activities in the Hawaiian Islands,
American Samoa, Guam, the Commonwealth of the Northern Mariana Islands, and
other U.S. islands and atolls — approximately 2,300 islands distributed over 5
million square miles of ocean. The office is organized into three major divisions:
Endangered Species, Habitat Conservation, and Invasive Species.

Hawaii and the Pacific islands have a range of unique habitat that supports more
than 300 species listed as threatened or endangered and 1,000 other species of
concern. Hawaii alone is home to a quarter of the nation’s listed species, and over
90 percent of the land is in private or State ownership. Thus, developing
partnerships with non-Federal landowners is essential to conserving at-risk species
and their habitats. To support the FWS mission, PIFWO awards grants and
cooperative agreements to private landowners and other groups for conservation
projects, conservation research, and related activities including training,
conferences, and public outreach.

Over three fiscal years, PIFWO officials have dedicated about one-third of the
field office’s budget to financial assistance for endangered species, habitat
conservation, and other purposes. With the authority to spend Federal funds comes
a responsibility to ensure accountability for the use of these funds in delivering
program results. We evaluated PIFWO and the Pacific Regional Office to assess
the extent to which their control activities can be relied upon to prevent and detect
fraud and wasteful spending.




                                                                                    2
          Percent of Budget Directed to Grants and
                  Cooperative Agreements
                       FY 2007 - 2009
                               0%



                                                               22%

                 64%                   36%

                                                               11%

                                                               3%


            Direct Spending (Salaries, Travel, Contracts, Supplies)
            Grants and Cooperative Agreements
            …for Endangered Species
            …for Habitat Conservation
            …for Other Purposes
Figure 1. Percent of Budget Directed to Grants and Cooperative Agreements. This is for the
Fiscal Years 2007-2009. Information presented is a result of the Office of Inspector General's
analysis of FWS data.




                                                                                             3
Findings
We found that in administering grants and cooperative agreements, PIFWO does
not meet its fiscal responsibilities, and the Pacific Regional Office fails to provide
effective oversight. Ineffective implementation of controls, together with ethical
concerns, has resulted in numerous indicators of potential fraud. Millions of dollars
are at significant risk for favoritism and fraud. Key controls are not properly
implemented, placing resources, and the mission to which these resources are
applied, at risk. Ethical concerns and indicators of potential fraud put FWS’
resources at risk. That is, undisclosed relationships between PIFWO grant
administrators and recipients raise the appearance of conflicts of interest. While
partnerships are essential to conserving threatened and endangered species and
their habitats, following established guidelines and policies to ensure impartiality,
transparency, and accountability is equally important.

Controls Implemented Ineffectively
Key controls developed by the Department of the Interior (Department), some in
response to the Office of Inspector General’s (OIG) recommendations, have been
implemented ineffectively in the FWS Pacific Region. Specifically, we found that
the Pacific Region’s Contracting and General Services (CGS) did not properly
implement existing policies on two key controls: the financial assistance review
checklist and the grants management review (GMR). Additionally, FWS has not
ensured that program outcomes are protected by long-term agreements. At the
same time, PIFWO has failed to maintain proper documentation of funded projects
and to provide adequate training for those with grants administration
responsibilities.

Financial Assistance Review Checklist
The financial assistance review checklist is an important control to ensure
compliance with applicable regulations. We found, however, that many PIFWO
files either lacked the checklist in its entirety, or were missing the CGS signature
page. Further, we found guidance in effect at the Pacific Regional Office that
raises questions about the validity of this control as currently implemented.

In response to a 2005 OIG recommendation, the Department took steps to
strengthen controls over grants and cooperative agreements. The Office of
Acquisition and Property Management (PAM) issued Financial Assistance
Communication Liaison Policy Release 2007-1, “Enhancing Quality Assurance in
the Award and Administration of Financial Assistance Transactions.” This policy
required the use of the financial assistance review sheet as a preventive control tool
that is designed to ensure that financial assistance awards are made in accordance
with Office of Management and Budget (OMB) policy and 505 Departmental
Manual (DM) 2 requirements.




                                                                                       4
The financial assistance review applies to all assistance awards and modifications.
In completing the review, a staff member in the Pacific Region CGS should screen
a proposed agreement file for required elements such as citation of the appropriate
statutory authority, documentation of pre-award solicitation, and collection of
particular information from the proposed recipient based on the type of project to
be funded. As designed, this review is an important control to ensure compliance
with applicable regulations. We found, however, significant shortcomings in the
implementation of this control. Many of the files did not include the financial
assistance review checklist. Of those files that did include the checklist, many were
missing the CGS signature page.

             General Process for Grants and Cooperative Agreements


                                 PIFWO Drafts the
                                    Agreement




                                 CGS completes the
                                 financial assistance
                                   review checklist




                                 Regional Program
                              Coordinator or Assistant
                                 Regional Director
                              Approves the Agreement




                                  PIFWO monitors
                                  performance and
                                  certifies invoices




                                  Regional Office of
                                 Budget and Finance
                                 processes payments


Figure 2. A general overview of the process for grants and cooperative agreements.

                                                                                     5
Guidance about implementing this control heightens our concern regarding the
missing checklists and signature pages. Currently, field office personnel prepare
agreement packages and route them through field management to CGS for the
financial assistance review. A “clarification” of policy at the Pacific Region
instructs the reviewer, usually a Contracting Officer (CO), to sign off during their
review of grants and cooperative agreements merely by qualifying their signature,
even if they have identified a proposed action that violated federal law, OMB
regulations, or agency policies and procedure:

“If…the CO determines a proposed action appears to be in violation of federal law,
OMB regulations or agency policies and procedures, the CO will qualify their
signature. The CO will include a brief written addendum stating that their signature
merely indicates contract sufficiency of the proposed action at hand (i.e. the action
itself is complete and includes all the necessary elements) and does not approve the
taking of that action, or other aspects of the assistance administration they feel is
inappropriate.”

Those whom we interviewed knew of no instance in which a CO qualified his/her
signature on a grant or cooperative agreement that included a proposed action with
violations, but without the signature page, or without the review document in its
entirety, we as independent observers are unable to determine whether CGS staff
raised any concerns with the agreements we examined. Decentralized decision-
making in FWS reduces the likelihood of a proposed agreement being scrutinized,
as Regional officials are prone to defer to program managers in the field. This
policy “clarification” suggests that the level of deference extends all the way to
violations of law and regulation, rendering the control meaningless.

Grants Management Review
We found that the GMR is not adequately documented and contains significant
design flaws. The purpose of the GMR is to ensure proper oversight of assistance
programs by periodically reviewing and correcting controls. Despite assertions that
a CGS staff member performed a GMR of PIFWO in 2008 and prepared a report
of her findings, officials — both in Portland and in Honolulu — could not locate a
copy of the report. Several PIFWO staff were interviewed for the GMR, but none
could tell us what the findings were. Thus, follow-up cannot be conducted.

We contacted the employee who performed the GMR. She did not recall any
specific findings except for a general concern about inadequate documentation.
She acknowledged a design flaw in the GMR process as implemented by the
Pacific Region. Specifically, there is no segregation of duties, in that the same
person who completed most of the financial assistance review checklists then went
on to perform the GMR, effectively reviewing her own work.




                                                                                       6
Landowner Agreements
We found weaknesses in PIFWO landowner agreement practices that could place
project outcomes at risk of reversal. When FWS provides funds for work on
private lands, the public investment and resulting conservation benefits should be
protected by a landowner agreement or wildlife extension agreement. Such
agreements typically bind the landowner to protect project outcomes for a period
of time, perhaps 10 years or more. In examining PIFWO records, we found eight
projects totaling more than $1 million that either lacked the landowner agreement
altogether, or included only the signature of an intermediary and not that of the
landowner. This clause, found in funding documents, requires recipients to repay
FWS in the event a landowner reneges on an agreement. An internal review by the
Pacific Regional Office found that as few of 1 in 10 of the projects evaluated had
the proper language. A PIFWO supervisor acknowledged that this “mechanism for
recovery” clause was missing from recent agreements and assured us that PIFWO
would work to include this language in the future.

We are also concerned that the use of intermediary entities may be shielding
partners from fulfilling their long-term obligations to FWS. A conservation worker
collaborating with landowners and PIFWO explained to us that a “virtual NGO”
can be established as a fiscal agent with legal standing for the receipt of funds.
Such an NGO — or non-governmental organization — might have no assets other
than the flow of moneys from FWS (and, perhaps, other funding agencies). Money
for conservation projects passes through the NGO to project performers. As the
official recipient of the financial assistance, the NGO, in the words of one grants
coordinator we interviewed, “absorbs the responsibility” for meeting the terms and
conditions of the grant or cooperative agreement. Unfortunately, there simply may
be no practical means to recoup funds from a virtual entity of this kind. FWS
interests are left unprotected in the absence of a binding agreement with the
landowner, and either no repayment clause or a clause accepted by an entity that
exists only as a pass-through.

Documentation
In examining grant and cooperative agreement files provided to us by PIFWO, we
found an overall lack of documentation that raises transparency and enforcement
concerns. Adequate documentation and ready access to that documentation are
important controls that should be useful in verifying compliance with policies and
procedures, and in preventing or detecting potential fraud. Although many files
included checklists indicating that all required documents were in place, we did not
find this to be valid.

In addition, we observed a lack of centralized access to project information.
Project biologists who monitor grant performance maintain files separately from
the Grants Assistant, and each grants administrator has his or her own approach to
tracking deadlines, payment status, and results of monitoring activities. Such
disparate handling of project information could hamper supervision or outside
evaluation of the progress of given programs, projects, or recipients.

                                                                                     7
Catalog of Federal Domestic Assistance (CFDA)
As we reported in our November 2009 Recovery Oversight Advisory, titled
“Concerns About Catalog of Federal Domestic Assistance Numbers” (Report No.
ROO-ROA-MOA-1013-2009), CFDA numbers are “…perhaps the most essential
component for identifying, reporting, and tracking Federal financial assistance
activities.” Transactions examined for that report indicated that more than a quarter
of the Department’s programs were noncompliant in the use of CFDA numbers.

In our evaluation of PIFWO documentation and Grants.gov, we found CFDA
coding for more than half of the financial assistance actions to be blank, “N/A,” or
a generic “00.000.” This practice could lead to misreporting of financial assistance
awards and difficulty in identifying and enforcing specific program stipulations.


“The CFDA number promotes transparency and
accountability, and helps ensure that only qualified
recipients receive federal assistance funds.”
           -    OIG, 2009


Recipient Assurances
More than three-quarters of the PIFWO files did not contain the standard assurance
form signed by grant recipients to certify their intent to comply with critical
Federal stipulations, including maintenance of a proper accounting system and
safeguarding against conflicts of interest. Indeed, we found one recipient
organization in which FWS staff holds office that allows any two board members
to make binding decisions, even when one has a known conflict.

Invoices and Support for Payments
We found that PIFWO grant administrators rarely collect supporting
documentation for recipient expenditures before certifying payment requests.
Though PIFWO maintains the authority to require recipients to provide this
documentation, the files we reviewed did not contain much, if any, support for
invoices. Some of PIFWO grant administrators readily admitted that they would
not know what to look for even if they requested such documentation. Inadequate
documentation not only makes fraud detection more difficult, it can — particularly
when coupled with no up-front cost analysis — significantly raise the risk of
overpayment. In the limited sample of recipients we contacted, supporting
documents were, in fact available, although some of this information led to further
concerns that we discuss in the “Ethical Concerns and Fraud Indicators” section of
this report.




                                                                                   8
Proper Training
In our 2007 report, “Proper Use of Cooperative Agreements Could Improve
Interior’s Initiatives for Collaborative Partnerships,” we highlighted a general lack
of training across the bureaus in the area of grants administration. Although the
Department concurred with OIG’s recommendation to implement a financial
assistance training program, the grant administrators and support staff we
interviewed reported receiving little or no training in topics we would consider
crucial to a successful financial assistance program. The employees are highly
dedicated individuals who work hard to advance the FWS mission and we believe
they have the enthusiasm and the capability to produce even greater results if given
the proper training and guidance.

 Recommendations

     1. Assess other Regions to determine whether the problems we
        identified in the Pacific Region/PIFWO are common or isolated.

     2. Revise assistance policies and practices to clearly delineate
        responsibilities and improve controls.

     3. Strengthen landowner agreement practices to better protect long-
        term outcomes.

     4. Improve records management to ensure centralized access to key
        information for each grant/cooperative agreement.

     5. Require a CFDA citation for all announcements of Federal assistance
        to ensure full reporting of financial assistance awards.

     6. Provide the necessary training and support to the Regional and Field
        Offices to ensure that staff has the capacity to properly administer
        Federal assistance.



Ethical Concerns and Fraud Indicators
Employees of FWS represent the United States Government and have positions of
trust and responsibility that require them to uphold the highest ethical standards. In
an environment of weakened controls, we identified several issues at PIFWO that
expose FWS to considerable risk. Firstly, FWS has been lax in implementing the
annual ethics disclosure process in PIFWO. Secondly, the appearance of conflicts
of interest, lack of competition, and appearance of favoritism put PIFWO program
credibility at risk, while frequent modifications and arrangements to circumvent
established procurement controls reduce transparency and hinder enforcement.
Lastly, the use of multiple avenues for payment put funds at risk for fraud or
erroneous disbursement. Together these indicators point to underlying problems

                                                                                     9
especially when compounded by grant recipients who do not abide by the
administrative requirements of Federal financial assistance programs. In one such
instance, these issues converged and lead us to question nearly $1.1 million of
grant funds awarded by PIFWO.

Annual Ethics Disclosure
At the time of our evaluation, there was no obligation for PIFWO grants
administrators to disclose outside relationships, memberships, or positions held
with outside organizations — even those that are recipients of FWS grants or
cooperative agreements.

Federal employees are subject to conflict of interest restrictions and, depending on
their duties, may be required to file a financial disclosure report (usually using
OGE Form 450). These disclosure reports are among the primary tools used by
ethics personnel to determine whether employees comply with Federal standards
of conduct and to provide assurance of impartiality in the performance of official
duties. PIFWO has more than a dozen biologists and several supervisors with grant
administration responsibilities, yet the Pacific Region’s Ethics Counselor informed
us that only one employee — the PIFWO Field Supervisor — is required to file an
annual ethics disclosure. This appears to be in contravention to the requirements of
Title 5 § 2634 of the Code of Federal Regulations (CFR) and related FWS policy.
Departmental guidance and 5 CFR 2634.904 does allow an exemption for
employees below the GS-15 level if they are subject to “substantial supervisory
review,” but we believe that this exemption is too broadly applied in PIFWO and
millions of dollars are awarded in circumstances that merit greater scrutiny.

Appearance of Conflicts of Interest
During the course of our evaluation, we discovered that government employees
and their family members participate in the management of organizations that are
the recipients of FWS grants. In one example, a PIFWO project biologist signed a
request to fund a $350,000 noncompetitive grant to a nonprofit entity. Her husband
later became President of the recipient entity, yet she failed to recuse herself from
grant administration responsibilities. The same organization has received nearly
$1.1 million in agreements noncompetitively from FWS and all members of its
Board of Directors are Federal or State of Hawaii employees, including two from
FWS.




                                                                                   10
“The appearance of a conflict of interest arises when an
employee is involved in an official duty capacity with
specific outside parties and there are circumstances that
would cause a reasonable person with knowledge of the
relevant facts to question the employee's impartiality in the
official matter.”
           -     212 FWS 2


The appearance of conflicts of interest is clearly defined in executive orders,
regulations, and policies governing FWS. These codes clearly state that employees
shall act impartially and not give preferential treatment to any private organization
or individual and shall endeavor to avoid any actions creating the appearance that
they are violating the law or the ethical standards.

Lack of Competition
Competitive procedures, implemented properly, can help to ensure that the
government will receive the best value for taxpayer dollars, whether disbursed
through procurement contracts or awarded in the form of financial assistance. The
Department, through policy at 505 DM 2, encourages competition in the award of
grants and cooperative agreements. This policy should help to assure that financial
assistance will be awarded fairly. We found, however, that the common practice
for soliciting grant recipients entails PIFWO biologists contacting their preferred
recipients to let them know funding is available, then working with the prospective
recipient to develop the scope of work and project budget before submitting the
grant package for approval. Only then, if required, does PIFWO advertise funding
opportunities. Despite the official policy, we found that there is little incentive for
grant administrators to implement competitive procedures, as there are no
performance standards associated with the use of competition in the awards
process.

Appearance of Favoritism
Even in the limited circumstances under which PIFWO advertises funding
opportunities, observers have cause to question whether the competition is
legitimate and the selection impartial.

In one instance, we found a PIFWO grant administrator extending to a prospective
recipient (who did ultimately receive the grant) a line of communication that she
knew to be inappropriate:


                                                                                    11
“I am sending this [e-mail] from [someone else’s] computer because technically I
am not suppose[d] to talk to you once the grant is listed on the web so do not call
or email me at work. But, if you have questions, you can call me at home after 4
pm [phone number] or email me [personal email address].”

In another instance, a former FWS employee and her associate received a $20,000
grant within a few months of her departure from PIFWO. Competitive procedures
were nominally followed, but we found that the grant administrator had contacted
the prospective applicant and even suggested how much she should charge FWS
for her services. Further, her services should have been procured by a contract and
not through financial assistance.

We also found that even though a project deliverable could not be met, a grant
recipient was allowed to purchase a laptop and receive training rather than
returning the remaining funds. This recipient is now part of the PIFWO staff.

Frequent Modifications
What are initially small awards can become quite substantial over time, as PIFWO
has a history of extensively modifying agreements to extend timeframes and to
provide additional funding. One major agreement has been in place,
noncompetitively, for more than a decade and amounts to several million dollars
on a cumulative basis. Another agreement, initially $35,000, was modified 10
times and stands now at more than $700,000. While our evaluation of PIFWO was
in progress, the FWS Hawaiian and Pacific Islands Refuge Complex Office, which
oversees wildlife refuges throughout the Pacific, awarded a $1 million grant —
without competition — to initiate work that is expected to cost millions more.

Arrangements to Circumvent Procurement Controls
We found that Federal and State procurement systems could be easily bypassed.
Processes for the use of Federal funds generally include many checks and
balances, yet these can be by passed when the funds are passed through non-
Federal partners.

In executing a grant or cooperative agreement, a nonprofit entity can be used to
serve as the fiscal agent. The fiscal agent receives the grant moneys and keeps the
records while the bulk of the funding is passed through to other partners for
performance. In concept, this approach allows for one entity to focus on fiscal and
procurement control while other entities specialize in on-the-ground conservation
work, outreach activities, and the like. By regulation, the principles of fiscal and
procurement control extend to recipients of Federal funds. We found, however, an
environment in which Federal and State employees join together with prospective
partners to discuss how available funds can be executed to accomplish work that
they believe would not be approved through established procurement channels. A
grant is made to a third party that is functioning as a superficially legitimate fiscal
agent, and purchases are then executed outside the view of procurement officials.



                                                                                     12
In one such instance, a recipient organization with two FWS employees on its
board of directors and a State of Hawaii employee who was acting as its grants
manager, received a substantial grant, noncompetitively, from PIFWO to execute a
conservation project on State land. Rather than granting the funds directly to the
State of Hawaii, officials agreed to channel the funds through the nonprofit entity.
A State official told us that part of the rationale for this was that State procurement
officials would not likely approve the planned procurement of materials and
expertise from foreign countries. To date, we have not found adequate
documentation of market research to determine whether this planned procurement
is in conformance with the Buy American Act, and we have alerted a cognizant
management official at the Pacific Regional Office to this situation.

Multiple Avenues for Payment
In examining two other financial assistance agreements awarded by PIFWO to this
same recipient, we found that one had an inordinate number of payment
transactions that seem to create redundant avenues for funds to change hands.
Disbursing moneys through multiple avenues can impede transparency and raise
the risks of fraud, embezzlement, and erroneous payments.

FWS processes have, at least by design, some degree of control over the use of
Federal resources. For example, there is a reimbursement process for employees to
be repaid when they use personal funds to cover official expenses. Also, there is an
interagency agreement process for the proper transfer of funds from one bureau to
another, or from a Department bureau to another Federal agency. This is illustrated
by Figure 3.




                                                                                    13
Figure 3. There are controlled processes in place to (A) award assistance to grant recipients,
(B) reimburse staff for official expenses, and (C) transfer funds to other agencies.

Yet, as illustrated in Figure 4, we found Federal employees receiving
reimbursements from grants awarded to this recipient instead of (or in addition to)
utilizing established procedures in their respective agencies. In one especially
troubling instance, we discovered transactions totaling over $750,000 that the
PIFWO grant administrator had approved from the grant recipient’s account,
including reimbursements to himself and at least two other Federal employees. A
number of such requests for reimbursement are “substantiated” by simple lists of
vendors and dollar amounts — without adequate itemization and, in at least one
instance, without any receipts or other supporting documentation. This grant
administrator was also found to be passing funds through a “coordinating
committee” to this grant recipient to pay for services rendered by staff of other
Federal agencies in support of PIFWO-funded projects — creating a parallel
process where an interagency agreement might have been a more appropriate and
accountable mechanism.

When we discussed Federal procurement and financial administrative rules with
the recipient’s grant manager, we found that he did not understand the guidelines
outlined in the FWS agreements that he had signed. We were told that their role as
a fiscal agent was only to provide a mechanism for FWS to pass funds through and
that it was not his responsibility to understand, or follow, any rules outlined in the
FWS. He felt that understanding the rules was the obligation of the FWS employee



                                                                                            14
who awarded the grant. He added that if the OIG were to find anything wrong with
the way the grant had been handled, he would just plead ignorance.




Figure 4. The complex system that exists due to multiple avenues of payment. The red lines
show (A) A PIFWO grant administrator directing reimbursements to himself and other
Federal employees from the grant recipient’s account, (B) Funds passing through a grant
recipient to reach another Federal agency, (C) A coordinating committee used to pass funds
to another Federal agency, and (D) funds passing between the grant recipient and the
coordinating committee.

The complexities introduced by these multiple avenues for payment, compounded
by grant recipients who do not abide by administrative requirements, hamper the
ability of FWS officials to positively assert control of the flow of Federal funds,
prevent duplicate payments, and detect fraudulent billing.

In light of the issues outlined in this report, we question whether $1,096,388 was
awarded inappropriately by PIFWO to this grant recipient, and believe that costs of
$1,091,946 are ineligible as a result of breaches of ethical standards and a
disregard for administrative requirements of financial assistance programs. See
Appendix 4 for summary.




                                                                                        15
Recommendations


  7. Revise ethics policies and practices to ensure that grant administrators
     file disclosure statements at least annually and provide clear guidance
     to employees when they must terminate outside relationships or
     recuse themselves from particular matters.

  8. Establish specific performance targets to increase the use of
     competitive procedures in awarding Federal assistance.

  9. Ensure that recipients acting in a fiduciary role have the capacity to
     administer federal financial assistance.




                                                                                16
Conclusion and Recommendations
Conclusion
There are many dedicated employees who work hard to advance the FWS mission.
Much of their success is due in part to relationships forged with conservation
partners, including State and local government agencies, nonprofit groups, and
private landowners. Historically, financial assistance programs have been subject
to fraud and mismanagement throughout the Government. Poor oversight, lax
controls, and ethical concerns make PIFWO vulnerable to grant fraud.

Until those charged with grant duties receive adequate training and guidance, the
Department is putting itself at continued risk for favoritism and fraud. Those
involved in grants administration and oversight need to fully understand, adhere to,
and enforce the regulations and other controls that are designed to minimize the
risk of fraud and wasteful spending.

We offer nine recommendations, together with supporting suggestions, to help
FWS bring PIFWO grant programs into control and reduce the risks of future
fraud.

Recommendations
   1. Assess other Regions to determine whether the problems we identified in
      the Pacific Region/PIFWO are common or isolated.

          PIFWO is but one of many FWS field offices that award financial
           assistance. Given the vulnerabilities we have identified in this report,
           FWS should examine practices in other regions and field offices to
           assess and validate the implementation of fiscal and procurement
           controls.

FWS Response: FWS is in the process of reviewing controls over grants and
cooperative agreements as part of the A-123 Appendix A, Management’s
Responsibility for Internal Control Over Financial Reporting. The results of the
A-123 review will provide insight as to whether the issues identified in the Pacific
Region/PIFWO are common or isolated.

OIG Reply: We are encouraged that FWS is reviewing controls over grants and
cooperative agreements to accurately assess and validate that fiscal and
procurement controls are implemented and functioning as intended to meet
management’s responsibility. We consider this recommendation resolved and
implemented.


   2. Revise assistance policies and practices to clearly delineate responsibilities
      and improve controls.

                                                                                      17
          Consider using the regional/field structure as a way to reinforce
           segregation of duties:
               o The Field Office be responsible for pre-award needs assessment
                  and prioritization.
               o The Regional Office be responsible for solicitation and award.
               o The Field Office be responsible for performance monitoring.
               o The Regional Office be responsible for fiscal controls, including
                  periodic review of random sample of invoices and supporting
                  documentation.
               o The Grants Management Review be completed by staff from
                  other Regions (peer review).

          Consider whether the Pacific Region’s CGS, the Pacific Region’s
           Program Offices, and PIFWO are staffed appropriately to implement
           the revised procedures and whether assignment of a Grants Specialist
           would better assure access to financial assistance expertise.

FWS Response: In response to this report, FWS provided changes to the
regional/field procedures that will segregate duties and improve controls.

OIG Reply: We commend the PIFWO and CGS for taking action. The processes
outlined in the response, however, do not address how the solicitation of financial
assistance will change. Further, it allows for the status quo of the awards
effectively being determined by the field offices during the “pre-award needs
assessment, prioritization and recommendations of awards” process. We
emphasize that the changes in processes must occur to ensure impartiality and
transparency. To ensure that appropriate corrective actions are taken, we request
that FWS provide a revised plan for implementing the recommendation. This plan
should include a revised target date if applicable for completion, or evidence of
any actions taken, and the responsible official(s).

   3. Strengthen landowner agreement practices to better protect long-term
      outcomes.

          Consider requiring clear maintenance commitments directly from
           landowners rather than relying on performance agreements with
           intermediary agents.

FWS Response: The Program Supervisor and the Field Supervisor instructed
project officers to ensure that landowner agreements be signed by landowners
rather than intermediary agents/recipients, in compliance with existing FWS
policy.

OIG Reply: We commend supervisors for taking action to ensure that landowner
agreement practices are in compliance with existing policy. This practice will

                                                                                  18
better protect long-term outcomes. We consider this recommendation resolved and
implemented.

   4. Improve records management to ensure centralized access to key
      information for each grant/cooperative agreement.

           Consider requiring that each financial assistance file contains, at a
            minimum, the following items:
               o agreement and all modifications,
               o recipient contact information and assurances,
               o monitoring report(s),
               o deliverable/reporting deadlines, and
               o funding/payment status and supporting documentation.

FWS Response: The field office has taken action to improve records management
and CGS will issue guidance that will include the need for the assurances form.

OIG Reply: We commend the field office for taking action to improve records
management and that the CGS will issue guidance that will reiterate the need to
obtain the assurances form. We consider this recommendation resolved and
implemented.

   5. Require a CFDA citation for all announcements of Federal assistance to
      ensure full reporting of financial assistance awards.

           In our evaluation of PIFWO documentation and Grants.gov, we found
            CFDA coding for over half of the financial assistance actions to be
            blank, “N/A,” or a generic “00.000.” Consider reforming policies and
            practices, and regularly examining transactions, to ensure compliance
            with CFDA requirements.

FWS Response: CGS will ensure correct CFDA numbers in the Federal
Assistance Award Data System. In November 2010, all agreements were converted
into the Financial Business Management System which requires a valid CFDA
number.

OIG Reply: We are encouraged that field and regional offices will coordinate
efforts to ensure full reporting of financial assistance awards and consider this
recommendation resolved and implemented.

   6. Provide the necessary training and support to the Regional and Field
      Offices to ensure that staff has the capacity to properly administer and
      monitor Federal assistance.

           Consider a training regimen that addresses each of the following
            topics:

                                                                                    19
               o   Ethical Standards,
               o   Competitive Procedures and Systems,
               o   Cost Analysis,
               o   Financial Controls,
               o   Cost Principles,
               o   Fraud Awareness,
               o   Property Accountability
               o   Records Management,
               o   Compliance Monitoring, and
               o   Assessing Recipient Capacity.

FWS Response: During 2010, a total of 148 staff from the Pacific Region and
PIFWO participated in courses on grants and cooperative agreements. The FWS
response concluded that this corrective action is now complete and no further
action was required.

OIG Reply: The recent actions taken by the Pacific Region and PIFWO to train
staff is exemplary. Ongoing training, however, is essential as staff rotate and rules
and regulations change. While we consider this recommendation resolved and
implemented, we suggest that FWS take the opportunity to build on these
foundations and make continued education an ongoing effort.

   7. Revise ethics policies and practices to ensure that grant administrators file
      disclosure statements at least annually, and provide clear guidance to
      employees when they must terminate outside relationships or recuse
      themselves from particular matters.

          Consider requiring employees to disclose relationships if they, their
           spouses, or members of their households, hold ownership interest in,
           serve as officers of, hold management positions in, or receive
           compensation from recipient organizations, or are identified as
           individual recipients.
          Consider more stringent controls (higher scrutiny) in situations where
           such a relationship is found to exist.

FWS Response: The PIFWO has taken action to provide clear guidance on
matters relating to conflicts of interest.

OIG Reply:
The field office has taken action to educate employees regarding conflicts of
interest and we consider this recommendation resolved and implemented. .

   8. Establish specific performance targets to increase the use of competitive
      procedures in awarding Federal assistance.




                                                                                    20
          Consider measuring the percentage of Federal assistance dollars
           awarded through competitive procedures. As with other performance
           measures, clearly define exceptions to the measure, if any, and tie
           targets to performance plans/evaluations where appropriate.

FWS Response: FWS agreed with the report’s conclusion that competitive
procedures help to ensure that the government will receive the best value for
taxpayer dollars but does not feel specific targets is a productive mechanism to
ensure competitive procedures are followed.

OIG Reply: While FWS agrees with the report’s conclusion that competitive
procedures help to ensure that the government will receive the best value for
taxpayer dollars, they do not feel specific target dates are a productive mechanism
to ensure competitive procures are followed. We consider this recommendation
resolved and implemented and reiterate that there is a need to use competitive
procedures in awarding Federal assistance and encourage FWS to determine a
means to ensure that this process occurs.

   9. Ensure that recipients acting in a fiduciary role have the capacity to
      administer Federal financial assistance.
          Consider developing protocols that validate a recipient’s capacity to
           abide by administrative requirements outlined in 43 CFR 12, at a
           minimum to include:
               o codes of conduct,
               o procurement procedures, and
               o an accounting system that provides effective control and
                 accountability.

FWS Response: The Pacific Region Contracting and General Services Office and
programs plan to coordinate existing monitoring efforts to provide better and more
efficient reviews of financial assistance administration in field offices. Grantee
monitoring site visits will include an evaluation of compliance with all
administrative requirements outlined in 43 CFR 12 [2 CFR] such as codes of
conduct, procurement procedures, and accounting system that provides effective
controls and accountability.

OIG Reply: We acknowledge that efforts by CGS and the programs to coordinate
existing monitoring efforts in combination with training and revised policies will
strengthen grant monitoring. In addition, the grantee monitoring site visits will
increase compliance and accountability. We consider this recommendation
resolved and implemented.




                                                                                   21
Appendix 1: Scope and Methodology
Scope
We performed our evaluation in accordance with the President’s Council on
Integrity and Efficiency “Quality Standards for Inspections.” Our evaluation
focused on grants and cooperative agreements funded by the Pacific Islands Fish
and Wildlife Office (PIFWO) during fiscal years 2007 through 2009. Though we
contacted officials of the National Wildlife Refuge System and the Wildlife Sport
Fish Restoration program for information, these programs are not included in the
scope of this evaluation report. We believe that the work performed provides a
reasonable basis for our conclusions and recommendations.

Methodology
For the purposes of conducting our evaluation, we interviewed the U.S. Fish and
Wildlife Service (FWS) officials and grant recipients, reviewed FWS grant files
and other documentation, and performed site visits of several grant projects.

          We reviewed prior audit and evaluation reports pertaining to Federal
           grants administration. See Appendix 2 for selected summaries.
          We reviewed laws and regulations, Office of Management and Budget
           (OMB) circulars, and the Department of the Interior (Department) and
           FWS policies related to grants administration and ethical standards.
          We reviewed FWS web pages and publications, including PIFWO and
           Pacific Island Conservation Partnership annual reports.
          From a list of 85 grants and cooperative agreements issued between
           fiscal years 2007 and 2009, we judgmentally selected 50 for file review.
           We looked at FWS review checklists, fiscal information, progress
           reports, and other related documents in PIFWO files.
          We interviewed FWS officials in Portland and Honolulu, and also
           contacted a small (judgmentally selected) subset of recipient/sub-
           recipient organizations for interviews and document collection. See
           Appendix 3 for a complete list of sites visited or contacted.
          Based on concerns outlined within this report, we investigated to
           determine what, if any, improper acts (administrative or criminal) may
           have taken place.

Limitations
Our fieldwork focused on FWS Pacific Regional Office in Portland, Oregon, and
the associated field office — PIFWO — in Honolulu, Hawaii. While our
discussion often refers to Departmental and Service-wide policies, we caution the
reader that specific observations regarding lapses in controls at PIFWO may or
may not be applicable to other regional or field offices.

While we reviewed PIFWO files pertaining to agreements throughout Hawaii and
the Pacific islands, we limited our visits to locations on the islands of Oʻahu and

                                                                                  22
Maui.

Though we comment on certain indicators of potential fraud and the appearance of
conflicts of interest in regard to FWS employees and recipients of Federal financial
assistance, we caution the reader that these indicators do not in all cases
definitively identify criminal activity or administrative misconduct. Rather, this
report helps to identify vulnerabilities that FWS should address as part of a
comprehensive risk management strategy.




                                                                                 23
Appendix 2: Selected Prior Coverage
January 2007
“Proper Use of Cooperative Agreements Could Improve Interior’s Initiatives for
Collaborative Partnerships” (Report No. W-IN-MOA-0086-2004). The report
reviewed 119 (total) cooperative agreements which were administered by FWS,
U.S. Geological Survey, U.S. National Park Service, U.S. Bureau of Land
Management, or U.S. Bureau of Reclamation.




Figure 5. Cover of Report No. W-IN-MOA-0086-2004.

In our 2007 report, we concluded that Interior lacked a fundamental understanding
as to how and for what purpose cooperative agreements should be awarded. To
resolve this misunderstanding, we provided a guide delineating the decision points
to determine whether a grant, cooperative agreement, or procurement contract was
the appropriate legal instrument and made the following five recommendations:

   1. Establish an Interior-wide policy to require, in conjunction with bureau
      solicitors, reviews of all proposed cooperative agreements to ensure that (a)
      the bureau has the legal authority, (b) there is substantial involvement by

                                                                                 24
   both parties to the agreement, (c) the correct legal instrument is used, and
   (d) all authorities and responsibilities, deliverables, cost budgets, and time
   frames for completing agreement objectives are clearly delineated.

2. Establish an Interior-wide policy to require periodic management reviews
   of all processes related to awarding and administering cooperative
   agreements. These processes should, at a minimum, include determining
   whether (a) required legal reviews were completed, (b) competition was
   solicited, (c) substantial involvement occurred from both parties, (d) goods
   and services were obtained at allowable and reasonable costs, and (e)
   transactions were properly coded to all financial and program systems.

3. Develop competition guidelines and metrics to evaluate and annually report
   the use of competition in awarding cooperative agreements to maintain the
   transparency consistent with the customer service mandates prescribed in
   Public Law 106-107.

4. In conjunction with DOI’s University, establish and implement a training
   program for all acquisition and program personnel. This training program
   should provide instruction on how to use applicable [Office of
   Management and Budget] circulars to conduct thorough cost reviews of
   budgeted and actual expenditures.

5. Require cost reviews during the cooperative agreement’s performance
   period to monitor billed costs and matching requirements. This would
   include comparing cost estimates developed during the application process
   to incurred costs.




                                                                                25
August 2005
“Framework Needed to Promote Accountability in Interior’s Grants Management”
(Report No. W-IN-MOA-0052-2004). The report identified several issues related
to stewardship over grants and cooperative agreements.




Figure 6. Cover of Report No. W-IN-MOA-0052-2004.

In our 2005 report, we provided a framework that incorporated seven key
processes and suggested actions that would create a holistic approach to grants
management. The seven processes and complementary suggested actions were:

   1. Producing Reliable Data

       To ensure the production of reliable data from Interior’s current systems
       and the new integrated system, we urged the Assistant Secretary for Policy,
       Management and Budget to establish:

            Processes, such as edit checks, analytical techniques, and
             reconciliations, to ensure complete and accurate entry of all grant
             financial and program information.


                                                                                   26
         Mechanisms to detect and correct inaccurate grant financial and
          program information.

2. Soliciting Competition

     To broaden public participation, we urged Interior to require:

         Bureaus to develop or update their procedures to comply with the
          intent of Departmental Manual (DM) 505, Chapter 2.11 and to list all
          discretionary grants in the Catalog of Federal Domestic Assistance
          (CFDA), a listing of current Federal assistance programs available to
          the public on the CFDA Web site, and other electronic sites as
          applicable.
         Awarding officials to justify all noncompetitive grants, with
          justifications reviewed at a level above that of awarding officials,
          such as the Environmental Protection Agency’s Grant Competition
          Advocate.

3. Monitoring Grants Effectively

     To effectively monitor grant agreements, we urged Interior to:

         Develop a hands-on-approach to monitoring grant awards, including
          visits to project sites, periodic meetings with grant recipients to
          review the work and address problems, attendance at meetings or
          events associated with the project, photographic or digital records of
          progress, and assessments of actions needed if the grantee is unable to
          complete the work.

4.     Writing Effective Grant Agreements

      The need for well-written grant agreements had not been fully addressed
      by any agency and was an area that Interior, by developing a prototype
      grant agreement, could demonstrate a best practice applicable
      Government-wide. We urged Interior to:

         Develop a prototype grant agreement which standardizes and
          streamlines, to the extent possible, the requirements of a well-written
          agreement and which could be easily modified by individual bureaus
          to meet specific bureau or grantee needs.

5.     Providing Adequate Training

      To provide adequate training to grant managers and administrators, we
      urged the Department to:


                                                                               27
         Develop a core curriculum in policy, administration, and program
          management, including the processes identified in our framework,
          as well as a training program to ensure that all grant managers and
          administrators meet core competency requirements.
         Develop a certification program for all employees who award
          grants.

6.   Streamlining Policies and Procedures

     To simplify requirements, including Departmental policies and
     procedures, we urged Interior to:

         Develop an Interior-wide electronic grants handbook that
          standardizes and simplifies crosscutting legal and Interior
          requirements for both granting bureaus and grantees.

7.   Establishing Measurable Goals

     To ensure that grant managers work towards establishing measurable
     goals, we urged Interior to require that:

         Goals for grant programs established by bureau and Interior Office
          heads be specific, measurable, attainable, and results-oriented and
          met within a reasonable time frame.
         Grant managers and administrators use these goals to monitor grant
          performance and incorporate results into performance ratings.




                                                                            28
Appendix 3: Sites Visited or Contacted
                  U.S. Fish and Wildlife Service

         FWS Pacific Regional Office; Portland, Oregon

                           —Hawaii—

                     FWS Law Enforcement

              FWS National Wildlife Refuge System

           FWS Pacific Islands Fish and Wildlife Office

     FWS Wildlife and Sport Fish Restoration Program Office

                    Other Federal Agencies

                 U.S. Department of Agriculture

                     U.S. Geological Survey

             Assistance Recipients & Sub-Recipients
                           —Maui—

                    Maui Coastal Land Trust
                         at Nuʻu Pond

                Maui Land & Pineapple Company

                  San Diego Zoological Society
               at Maui Bird Conservation Center

                 Tri-Isle Resource Conservation
                         and Development

          West Maui Mountain Watershed Partnership

                           —Oʻahu—

                        Bishop Museum


                                                              29
   Hawaii Chapter, The Wildlife Society

Koʻolau Mountains Watershed Partnership

   Plant Extinction Prevention Program

            State of Hawaii
Department of Land and Natural Resources




                                           30
Appendix 4: Schedule of Monetary
Impact

   Grant                Grant            Claimed            Ineligible
  Number               Amount              Costs              Costs *
 122003G003            $711,738          $711,738            $711,738
 122007G002              350,000           350,000             350,000
 122008G013               34,650            30,208              30,208
                      $1,096,388        $1,091,946          $1,091,946

*Ineligible Costs are those that are questioned because of an alleged violation of a
provision of a law, regulation, contract, grant, cooperative agreement, or other
agreement or document governing the expenditure.

In light of the issues outlined in this report, we question that $1,096,388 was
awarded inappropriately, and deem the cost incurred of $1,091,946 is ineligible as
a result of breaches of ethical standards and a disregard for administrative
requirements of financial assistance programs.

The appearance of conflicts of interest is clearly defined in Title 5 § 2635.101 of
the Code of Federal Regulations (CFR) as well as in Executive Order 12674 and
212 FWS 2. These codes outline the Standards of Ethical Conduct for Employees
of the Executive Branch and provide for the basics regarding the obligation of
public service which state that employees shall act impartially and not give
preferential treatment to any private organization or individual and shall endeavor
to avoid any actions creating the appearance that they are violating the law or the
ethical standards. While FWS staff was not required to disclose outside
relationships, memberships, or positions held with outside organization, they are
not absolved from following the regulations, executive orders, and policies
concerning conflicts of interest.

In the same manner, grant recipients must comply with applicable regulations
governing the program. This includes adherence to OMB circular A-110 as
codified in 43 CFR 12, which establishes that a recipient must maintain “codes of
conduct” similar to the standards of ethical conduct required of FWS staff, and
abide by administrative requirements of financial assistance programs.

During our review, we found that three grants were awarded by PIFWO under
circumstances that breached the standards for ethical conduct. These circumstances
included:

     FWS employees serving on the Board of the recipient organization that was
      acting as a fiscal manager for PIFWO to pass funds through.

                                                                                  31
     All grants were awarded noncompetitively with a disregard for fair and
      open competition.
     A PIFWO grant administrator did not recuse herself of her oversight
      responsibility when her husband later became President of the recipient
      organization.
     A grant modified 10 times outside the original scope of work, increasing
      the amount from $35,000 to $711,738.
     A PIFWO grant administrator approved transactions totaling over $750,000
      from the grant recipient’s account, including reimbursements to himself
      and at least two other Federal employees, bypassing internal controls.

We question the capacity of the recipient who was awarded these grants based on
their disregard of codes of conduct and administrative requirements of financial
assistance programs. These infractions include:

      Officers of the recipient Board who participated in the selection of Federal
       funds when an apparent conflict of interest would be involved.
      An officer of the recipient Board, while acting in his official FWS capacity,
       solicited a monetary “contribution” that was ultimately routed to the
       recipient.
      Lack of general oversight by the recipient’s Board over their grants
       management which included an inadequate accounting system,
       procurement rules, and internal controls.




                                                                                 32
Appendix 5: FWS Response
(U.S. Fish and Wildlife Service’s response to the draft report follows on page 34.)




                                                                                 33
                 United States Department of the Interior
                               FISH AND WILDLIFE SERVICE
                                      Washington, D.C. 20240
In Reply Refer To:
FWS/ABHC·PDM/04745I                    FEB 2 5 2011


To:

From:
             ActinC :i
               Assistant Inspector General for Audits, Inspections, and Evaluations

               Director
                                  H () ()
                               ~0 ~
Subject :      U.S. Fish and ildlife Service response to Draft Evaluation - USFWS Grants and
               Cooperat ive Agreements in Hawaii and the Pacific Is land s, Report No. HI-EV-
               FWS·OOOI·2009

This memorandum is in response to your January 21. 2011. memorandum that transmitted the
findings OfYOUf drali evaluation afme Grants and Cooperative Agreements in Hawaii and the
Pacific Islands. We have reviewed the draft report and have no recommended changes. The
report offered nine recommendations for improving grants management functions in our Pacific
Islands Fish and Wildlife Office and Pacific Regional Office. The attached corrective action
plan providcs our response and explanation of managcment actions that arc planned or
underway.

In addition to the recommendations. the report questioned costs related to three awards. We
agree with the concerns articulated about these agreements. including poor attention to
agreement modification requirements and inattention to the appearance of conflict of interest.
assure you the U.S. Fish and Wildlife Service (Service) is committed to thoroughly examining
both the grant awarding processes and the grantees' rccordkeeping and accountin g practices. We
stress that each project was sci entifically sound, we ll designed, and appropriately vetted by the
scientific community and through public review processes. After consideration, we have
determined that the projects achieved high priority conservat ion goals identified by the Service
and our partners and adequate value has been received for the grant funds expended.

 rhank you for the opportunity to respond to the draft report and for the additional time allowed
to prepare this response and corrective action plan.

Attachment




                                TAKE PRIDE°1lf:                  1
                                 INAMERICA~
                                                                                                34
                        U. S. FISH AND WILDLIFE SERVICE
           Pacific Region and Washington Office Response to OIG Evaluation
  Draft Report – USFWS Grants and Cooperative Agreements in Hawaii and the Pacific
                                        Islands
                           Report No. HI-EV-FWS-0001-2009

                              CORRECTIVE ACTION PLAN

RECOMMENDATIONS

1. Assess other Regions to determine whether the problems we identified in the Pacific
   Region/PIFWO are common or isolated.

Corrective Action: The policy and oversight function for grants and cooperative agreements
Service-wide resides with the Assistant Director of Wildlife and Sport Fish Restoration Program
(WSFR). WSFR is in the process of reviewing controls over grants and cooperative agreements
as part of the A-123 Appendix A, Management’s Responsibility for Internal Control Over
Financial Reporting. This review will be completed this fiscal year. The results of the A-123
review will provide insight as to whether the issues identified in the Pacific Region/PIFWO are
common or isolated.

Target Date: September 30, 2011

Responsible Official: Hannibal Bolton, Assistant Director of Wildlife and Sport Fish
Restoration Program

2. Revise assistance policies and practices to clearly delineate responsibilities and improve
   controls.

Corrective Action: In response to this report, PIFWO established a system whereby financial
reports and invoices are reviewed by multiple employees involved in the agreement process prior
to payment. Field offices will continue to be responsible for pre-award needs assessment,
prioritization and recommendation of awards. In the Pacific Region, programs review and
approve all grants and cooperative agreements at the Regional Office. The Contracting and
General Services office and programs will conduct a combined monitoring site visit of finance
assistance administration at PIFWO to determine compliance with new system. In addition,
PIFWO has filled a vacant position for a grants and cooperative agreements technician.

Target Date: September 30, 2011

Responsible Officials:
Loyal Mehrhoff, Field Supervisor, Pacific Islands Fish and Wildlife Office, (808) 792-9400
Kristin Young, Chief of Contracting and General Services, Pacific Regional Office,
(503) 872-2827
Michael Roy, Ecological Services Program Supervisor, Pacific Regional Office, (503) 231-2013



                                               1 

                                                                                             35
3. Strengthen landowner agreement practices to better protect long-term outcomes.

Corrective Action: The Program Supervisor and the Field Supervisor instructed project officers
to ensure that landowner agreements be signed by landowners rather than intermediary
agents/recipients, in compliance with existing Service policy. Corrective action is complete and
no further action required.

Responsible Officials:
Loyal Mehrhoff, Field Supervisor, Pacific Islands Fish and Wildlife Office, (808) 792-9400
Michael Roy, Ecological Services Program Supervisor, Pacific Regional Office, (503) 231-2013

4. Improve records management to ensure centralized access to key information for each
   grant/cooperative agreement.

Corrective Action: The field office has initiated a management and consolidation system to
centralize all financial and program records for ease-of-use, accessibility and consistency for
project officers. Budget personnel ensure routine audits are completed and records are properly
managed. Regular audits by the field office utilize a standardized Financial Assistance
Management Review checklist to ensure all required documents are included in project files.
CGS will issue an improvements memo for FY11 that will include additional language in the
templates along with information regarding the assurances form.

Target Date: August 31, 2011

Responsible Officials:
Loyal Mehrhoff, Field Supervisor, Pacific Islands Fish and Wildlife Office, (808) 792-9400
Kristin Young, Chief of Contracting and General Services, Pacific Regional Office,
(503) 872-2827
Michael Roy, Ecological Services Program Supervisor, Pacific Regional Office, (503) 231-2013

5. Require a CFDA citation for all announcements of Federal assistance to ensure full
   reporting of financial assistance awards.

Corrective Action: The Program Supervisor and the Field Supervisor have directed project
officers to send modifications through CGS to ensure correct CFDA numbers in the Federal
Assistance Award Data System. In November 2011, all agreements converted into the Financial
Business Management System, our new business system, will require a valid CFDA number.

Target Date: September 30, 2011

Responsible Officials:
Loyal Mehrhoff, Field Supervisor, Pacific Islands Fish and Wildlife Office, (808) 792-9400
Michael Roy, Ecological Services Program Supervisor, Pacific Regional Office, (503) 231-2013

6. Provide the necessary training and support to the Regional and Field Offices to ensure
   that staff has the capacity to properly administer and monitor Federal assistance.


                                                2 

                                                                                              36
Corrective Action: During 2010, a total of 119 staff from the Pacific Region’s four Ecological
Services State Offices (Honolulu, Portland, Lacey, and Boise) and the Regional Office
participated in a three-day course titled, “Introduction to Grants and Cooperative Agreements for
Federal Personnel” conducted on-site by Management Concepts, Inc., of Vienna, Virginia. The
Regional Office requires this or similar training for field staff assigned as project or
administrative officers for grants or agreements. Additionally, 29 staff members at PIFWO
completed an additional two-day course titled, “Monitoring Grants and Cooperative Agreements
for Federal Employees” provided by the same vendor. Corrective action is complete and no
further action required.

Responsible Officials:
Loyal Mehrhoff, Field Supervisor, Pacific Islands Fish and Wildlife Office, (808) 792-9400
Kristin Young, Chief of Contracting and General Services, Pacific Regional Office,
(503) 872-2827
Michael Roy, Ecological Services Program Supervisor, Pacific Regional Office, (503) 231-2013

7. Revise ethics policies and practices to ensure that grant administrators file disclosure
   statements at least annually, and provide clear guidance to employees when they must
   terminate outside relationships or recuse themselves from particular matters.

Corrective Action: Starting in FY10, the Field Supervisor at PIFWO began requiring all PIFWO
project officers, project managers, Budget and Finance personnel, administrative officers, and
project leaders to complete a written statement recusing themselves from being involved as a
project officer for any agreement where there is a perceived or apparent conflict of interest. A
complete roster is kept with the Administrative Officer and the disclosure is updated annually or
upon changes in position and/or affiliation status. It is the expressed intent that using this form
will provide full disclosure of their affiliation with all outside entities to include their family and
partners to avoid involvement in a real or apparent conflict of interest. This form is not the
Confidential Financial Disclosure Report – OGE Form 450. The Service maintains a list of
positions that are covered under the OGE Form 450 filing criteria and, therefore, subject to
OGE-Form 450 filing requirements. The Supervisor/manager must identify the duties and
responsibilities of the position in order for the determination to be made requiring filing an OGE-
Form 450. A program may make the determination of what positions may meet the filing
requirements based on their duties and responsibilities of their position. Corrective action is
complete and no further action required.

Responsible Officials:
Loyal Mehrhoff, Field Supervisor, Pacific Islands Fish and Wildlife Office, (808) 792-9400
Michael Roy, Ecological Services Program Supervisor, Pacific Regional Office, (503) 231-2013

8. Establish specific performance targets to increase the use of competitive procedures in
   awarding Federal assistance.

Service Response: The Service agrees with the report’s conclusion that competitive procedures
help to ensure that the government will receive the best value for taxpayer dollars. We are


                                                  3 

                                                                                                    37
equally committed to procedures that promote open and transparent government, especially when
funds support our mission to conserve, protect and enhance fish, wildlife, and plants and their
habitats. However, we are not convinced that setting specific targets is a productive mechanism
to ensure competitive procedures are followed. Setting ranking criteria and competitive
procedure are the responsibility of each program and may vary widely to meet local goals.

The Service believes that actions taken to resolve other recommendation in this report will
strengthen controls and awareness of all procedures, including competitive procedures.
Therefore, the Service will not take actions to establish specific performance targets to increase
the use of competitive procedures. No additional action required.

9. Ensure that recipients acting in a fiduciary role have the capacity to administer Federal
   financial assistance.

Corrective Action: The Pacific Region Contracting and General Services Office and programs
plan to coordinate existing monitoring efforts to provide better and more efficient reviews of
financial assistance administration in field offices. Cooperative reviews cover examinations of
both fiscal and programmatic areas. The existing CGS review is a three-year cycle of
performance reviews that include examining agreement files for compliance with 43 CFR 12 [2
CFR], the Excluded Parties List System, Central Contractor Registry, the Federal Audit
Clearinghouse, etc. The program reviews concentrate on overall compliance with program rules
and accomplishment reporting. Reviews will follow the DOI-Financial Reporting policy.

This effort, combined with training and revised policies mentioned elsewhere in this corrective
action plan, will strengthen grant monitoring at the field offices. Increased and effective
monitoring will ensure the Service is able to evaluate recipients’ capacity and ability to
administer Federal financial assistance. Grantee monitoring site visits will include an evaluation
of compliance with all administrative requirements outlined in 43 CFR 12 [2 CFR] such as codes
of conduct, procurement procedures, and accounting system that provides effective controls and
accountability.

Because these comprehensive reviews will be an ongoing effort, we believe that the corrective
action of planning the reviews is completed. No further action is required.

Responsible Officials:
Loyal Mehrhoff, Field Supervisor, Pacific Islands Fish and Wildlife Office, (808) 792-9400
Kristin Young, Chief of Contracting and General Services, Pacific Regional Office,
(503) 872-2827
Michael Roy, Ecological Services Program Supervisor, Pacific Regional Office, (503) 231-2013




                                                 4 

                                                                                                 38
Appendix 6: Status of
Recommendations
Recommendation Status            Action Required
                                 Please provide a revised plan of action
                  Management     for implementing the recommendation,
2                 concurs, but   including a revised target date if
                  additional     applicable for completion or evidence
                  information    of actions taken and the responsible
                  needed.        official(s). We will refer this
                                 recommendation to the Assistant
                                 Secretary for Policy, Management and
                                 Budget for tracking of implementation.
                  Resolved and   No further action is required.
                  Implemented
1,3,4,5,6,7,8,9




                                                                      39
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, Departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             Departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doioig.gov

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            703-487-5435

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
